<html>
<title> - EXAMINING THE POLICIES AND PRIORITIES. OF THE EQUAL EMPLOYMENT OPPORTUNITY COMMISSION (EEOC) AND THE OFFICE OF FEDERAL CONTRACT COMPLIANCE PROGRAMS (OFCCP)</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 EXAMINING THE POLICIES AND PRIORITIES
                  OF THE EQUAL EMPLOYMENT OPPORTUNITY
                  COMMISSION (EEOC) AND THE OFFICE OF
                      FEDERAL CONTRACT COMPLIANCE
                            PROGRAMS (OFCCP)

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 19, 2019

                               __________

                           Serial No. 116-39

                               __________

      Printed for the use of the Committee on Education and Labor
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      



           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-857 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------              
              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Lloyd Smucker, Pennsylvania
Donald Norcross, New Jersey          Jim Banks, Indiana
Pramila Jayapal, Washington          Mark Walker, North Carolina
Joseph D. Morelle, New York          James Comer, Kentucky
Susan Wild, Pennsylvania             Ben Cline, Virginia
Josh Harder, California              Russ Fulcher, Idaho
Lucy McBath, Georgia                 Van Taylor, Texas
Kim Schrier, Washington              Steve Watkins, Kansas
Lauren Underwood, Illinois           Ron Wright, Texas
Jahana Hayes, Connecticut            Daniel Meuser, Pennsylvania
Donna E. Shalala, Florida            William R. Timmons, IV, South 
Andy Levin, Michigan*                    Carolina
Ilhan Omar, Minnesota                Dusty Johnson, South Dakota
David J. Trone, Maryland             Fred Keller, Pennsylvania
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES

                  SUZANNE BONAMICI, OREGON, Chairwoman

Raul M. Grijalva, Arizona            James Comer, Kentucky,
Marcia L. Fudge, Ohio                  Ranking Member
Kim Schrier, Washington              Glenn ``GT'' Thompson, 
Jahana Hayes, Connecticut                Pennsylvania
David Trone, Maryland                Elise M. Stefanik, New York
Susie Lee, Nevada                    Dusty Johnson, South Dakota
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 19, 2019...............................     1

Statement of Members:
    Bonamici, Hon. Suzanne, Chairwoman, Subcommittee on Civil 
      Rights and Human Services..................................     1
        Prepared statement of....................................     3
    Comer, Hon. James, Ranking Member, Subcommittee on Civil 
      Rights and Human Services..................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Brown Barnes, Ms. Cindy, Director, Education, Workforce, and 
      Income Security, U.S. Government Accountability Office.....    29
        Prepared statement of....................................    31
    Dhillon, Ms. Janet, Chair, U.S. Equal Employment Opportunity 
      Commission.................................................    19
        Prepared statement of....................................    21
    Leen, Mr. Craig, Esquire, Director, Office of Federal 
      Contract Compliance Programs, U.S. Department of Labor.....     7
        Prepared statement of....................................    10

Additional Submissions:
        Ms. Brown Barnes:........................................
        Report: Progress Made on GAO Recommendations to Improve 
          Nondiscrimination Oversight, but Challenges Remain.....    70
        Table 1: Status of GAO's September 2016 Recommendations 
          to the Office of Federal Contract Compliance Programs..    71
        Table 2: Status of GAO's November 2017 Recommendations to 
          the Office of Federal Contract Compliance Programs 
          (OFCCP) and the Equal Employment Opportunity Commission 
          (EEOC).................................................    72
    Questions submitted for the record by:
        Bonamici, Hon. Suzanne, a Representative in Congress from 
          the State of Oregon 

        Fudge, Hon. Marcia L., a Representative in Congress from 
          the State of Ohio 

        Lee, Hon. Susie, a Representative in Congress from the 
          State of Nevada........................................    79
        Schrier, Hon. Kim, a Representative in Congress from the 
          State of Washington....................................    78
        Scott, Hon. Robert C. ``Bobby'', a Representative in 
          Congress from the State of Virginia 

    Responses to questions submitted for the record by:
        Ms. Brown Barnes.........................................    83
        Ms. Dhillion.............................................    86
        Mr. Leen.................................................   107

 
                 EXAMINING THE POLICIES AND PRIORITIES.
                  OF THE EQUAL EMPLOYMENT OPPORTUNITY
                  COMMISSION (EEOC) AND THE OFFICE OF
                      FEDERAL CONTRACT COMPLIANCE
                            PROGRAMS (OFCCP)

                              ----------                              


                      Thursday, September 19, 2019

                       House of Representatives,

                   Committee on Education and Labor,

            Subcommittee on Civil Rights and Human Services

                            Washington, D.C.

                              ----------                              

    The subcommittees met, pursuant to call, at 2:17 p.m., in 
Room 2175, Rayburn House Office Building. Hon. Suzanne Bonamici 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Bonamici, Schrier, Hayes, Lee, 
Comer, Stefanik, and Johnson.
    Also Present: Representatives Scott, and Foxx.
    Staff Present: Ilana Brunner, General Counsel; Emma Eatman, 
Press Assistant; Eunice Ikene, Labor Policy Advisor; Ariel 
Jona, Staff AssistantStephanie Lalle, Deputy Communications 
Director; Jaria Martin, Clerk/Assistant to the Staff Director; 
Richard Miller, Director of Labor Policy; Max Moore, Office 
Aid; Janice Nsor, Oversight Counsel; Veronique Pluviose, Staff 
Director; Carolyn Ronis, Civil Rights Counsel; Banyon Vassar, 
Deputy Director of Information Technology; Jonathan Walter, 
Labor Policy Fellow; Courtney Butcher, Minority Director of 
Member Services and Coalitions; Cate Dillon, Minority Staff 
Assistant; Rob Green, Minority Director of Workforce Policy; 
Jeanne Kuehl, Minority Legislative Assistant; John Martin, 
Minority Workforce Policy Counsel; Hannah Matesic, Minority 
Director of Operations; Audra McGeorge, Minority Communications 
Director; Carlton Norwood, Minority Press Secretary; and Ben 
Ridder, Minority Professional Staff Member.
    Chairwoman BONAMICI. The Committee on Education and Labor 
will come to order. Welcome, everyone. I note for the 
Subcommittee that Congressman Walberg of Michigan is permitted 
to participate in today's hearing with the understanding that 
his questions will come only after all members of the 
Subcommittee on both sides of the aisle who are present have 
had an opportunity to question the witnesses.
    I note that a quorum is present. The Committee is meeting 
today in an oversight hearing to hear testimony on examining 
the policies and priorities of the Equal Employment Opportunity 
Commission, EEOC, and the Office of Federal Contract Compliance 
Programs, OFCCP.
    Pursuant to Committee Rule 7c, opening statements are 
limited to the Chair and Ranking Member. This allows us to hear 
from the witnesses sooner and provides all members with 
adequate time to ask questions.
    I now recognize myself for the purpose of making an opening 
statement.
    Today's hearing will examine the policies and priorities of 
the Equal Employment Opportunity Commission, the EEOC, and the 
Office of Federal Contract Compliance Programs, OFCCP. These 
are the two primary agencies responsible for combating 
workplace discrimination and harassment and their oversight is 
as necessary today as ever before.
    Today the median Black worker earns only 75 percent of the 
wage earned by the median White worker. One in four LGBTQ 
workers reports experiencing some form of discrimination in the 
workplace. And more than 60 percent of workers over the age of 
45 report seeing or experiencing age discrimination in the 
workplace.
    My home State of Oregon has one of the most rapidly aging 
populations in the country, and I have heard from workers, 
particularly those in the technology industry, who believe they 
have been dismissed from or denied employment because of their 
age. The technology sector is one of the fastest growing 
sectors in our economy and the lack of racial, ethnic, and 
gender diversity is particularly noteworthy. In 2017 the 
Government Accountability Office found that women hold only 19 
percent of senior officer and manager positions. Representation 
is similarly low for Asian, Hispanic, and Black workers.
    Our workforce is becoming increasingly diverse, yet women, 
people of color, older workers, workers with disability, and 
LGBTQ workers are still experiencing persistent discrimination 
in the workplace, including pay disparities, limited 
opportunities, and often times harassment.
    The EEOC was established more than 50 years ago under the 
Civil Rights Act. It enforces the Federal laws that prohibit 
workplace discrimination based on race, religion, sex, national 
origin, age, disability, or genetic information. OFCCP's 
mission is to make sure Federal contractors and subcontractors 
promote diversity through affirmative action and enforce anti-
discrimination laws for companies receiving taxpayer dollars.
    It is the responsibility of both agencies to help protect 
workers from discrimination. Unfortunately, we have seen both 
the EEOC and the OFCCP take actions that further the Trump 
Administration's efforts to undermine and roll back civil 
rights protections.
    We should be doing everything we can to promote fairness in 
the workplace, but the Trump Administration seems to be taking 
us backward, not forward in this important effort. The 
President's fiscal year 2019 budget proposed a 13 percent cut 
to OFCCP and his fiscal year 2020 budget proposed nearly a $24 
million cut to the EEOC's budget. These drastic proposed cuts 
send a clear message about the value, or lack thereof, this 
Administration places on the protection of civil rights. That 
message has been reiterated through its policy decisions.
    In 2017 the Administration took the extraordinary step of 
filing an amicus brief in direct opposition to the EEOC in a 
case regarding the sexual orientation and gender identity 
protections under Title VII of the Civil Rights Act. The EEOC 
appears to be adopting the Administration's lax approach to 
workplace discrimination. The Commission has not filed any new 
cases of sex-based discrimination related to gender identity or 
sexual orientation since September of 2017. And although it 
cleared the notorious case backlog, its ability to do so while 
employing fewer people raises serious questions about how 
rapidly cases are being closed. And most recently, many of us 
were dismayed by EEOC's announcement that it would stop 
collecting pay data that would help the EEOC and OFCCP staff 
identify and address pay disparities based on gender, race, and 
ethnicity.
    In 2016 the EEOC stated that the expanded pay data 
collection was necessary for the enforcement of Title VII, 
Executive Order 11246 and the Equal Pay Act. The decision to 
end the collection of pay data is an unprecedented setback for 
the enforcement of civil rights laws.
    With respect to the OFCCP, the Administration's record is 
not much better. In July, Politico reported that from fiscal 
year 2017 to fiscal year 2018, the OFCCP conducted on average 
977 compliance evaluations per year. That is about one-quarter 
the rate during the Obama Administration. The same reporting 
found that the Agency has investigated only 9 percent of the 
discrimination complaints received, compared to 21 percent 
under the Obama Administration.
    Additionally, in August the Department of Labor issued a 
new proposal to dramatically broaden the ability of Federal 
contractors to use religion as a basis to discriminate in 
hiring. This will open the door to Federal contractors 
discriminating against LGBTQ individuals, people of color, 
women, or even those with varying religious beliefs, upending 
the government's compelling interest in preventing the use of 
taxpayer funds to perpetuate otherwise unlawful discrimination.
    During today's hearing we will explore the rollback of 
these civil rights protections. And as our workplace becomes 
increasingly diverse, we need the EEOC and the OFCCP to get 
back on track.
    I want to thank all the witnesses for their time today.
    And I yield to Ranking Member Comer for his opening 
statement.
    [The statement of Chairwoman Bonamici follows:]

 Prepared Statement of Hon. Suzanne Bonamici, Chairwoman, Subcommittee 
                   on Civil Rights and Human Services

    Today's hearing will examine the policies and priorities of the 
Equal Employment Opportunity Commission, or the E-E-O-C, and the Office 
of Federal Contract Compliance Programs, or the O-F-C-C-P.
    These are the two primary agencies responsible for combatting 
workplace discrimination and harassment, and their oversight is as 
necessary today as ever before. Today, the median Black worker earns 
only 75 percent of the wage earned by the median white worker. One in 
four LGBTQ workers reports experiencing some form of discrimination in 
the workplace. And more than 60 percent of workers over the age of 45 
reporting seeing or experiencing age discrimination in the workplace.
    My home state of Oregon has one of the most rapidly aging 
populations in the country, and I have heard from workers, particularly 
those in the technology industry, who believe they have been dismissed 
from or denied employment because of their age. The technology sector 
is one of the fastest growing sectors of our economy, and the lack of 
racial, ethnic, and gender diversity is particularly noteworthy. In 
2017, the Government Accountability Office found that women hold only 
19 percent of senior officer and manager positions. Representation is 
similarly low for Asian, Hispanic, and Black workers.
    Our workforce is becoming increasingly diverse, and yet women, 
people of color, older workers, workers with disabilities, and LGBTQ 
workers are still experiencing persistent discrimination in the 
workplace including, pay disparities, limited opportunities, and 
harassment.
    The EEOC was established more than 50 years ago under the Civil 
Rights Act. It enforces the federal laws that prohibit workplace 
discrimination based on race, religion, sex, national origin, age, 
disability, or genetic information. OFCCP's mission is to protect 
federal contractors and subcontractors, promote diversity through 
affirmative action, and enforce anti-discrimination laws for companies 
receiving taxpayer dollars.
    It is the responsibility of both agencies to help protect workers 
from discrimination. Unfortunately, we have seen both the EEOC and the 
OFCCP take actions that further the Trump Administration's efforts to 
undermine and roll back civil rights protections.
    We should be doing everything we can to promote fairness in the 
workplace. But the Trump Administration seems to be taking us backward, 
not forward, in this important effort. The President's Fiscal Year 2019 
budget proposed a 13 percent cut to OFCCP, and his Fiscal Year 2020 
budget proposed a nearly $24 million cut to the EEOC's budget. These 
drastic cuts send a clear message about the value, or lack-thereof, 
this Administration places on the protection of civil rights, and that 
message has been reiterated through its policy decisions.
    In 2017, the Administration took the extraordinary step of filing 
an amicus brief in direct opposition to the EEOC in a case regarding 
the sexual orientation and gender identity protections under Title VII 
of the Civil Rights Act.
    The EEOC appears to be adopting the Administration's lax approach 
to workplace discrimination. The Commission has not filed any new cases 
of sex-based discrimination related to gender identity or sexual 
orientation since September 2017. And although it cleared the notorious 
case backlog, its ability to do so while employing fewer people raises 
serious questions about how rapidly cases are being closed.
    And most recently, many of us were dismayed by EEOC's announcement 
that it would stop collecting pay data that would help the EEOC and 
OFCCP staff identify and address pay disparities based on gender, race, 
and ethnicity. In 2016, the EEOC stated that the expanded pay data 
collection was necessary for the enforcement of Title VII, Executive 
Order 11246, and the Equal Pay Act. The decision to end the collection 
of pay data is an unpresented setback for the enforcement of civil 
rights laws.
    With respect to OFCCP, the Administration's record is not much 
better. In July, Politico reported that from Fiscal Year 2017 to Fiscal 
Year 2018, the OFCCP conducted, on average, 977 compliance evaluations 
per year--about one quarter the rate during the Obama Administration. 
The same reporting found the agency has investigated only nine percent 
of the discrimination complaints received, compared to 21 percent under 
the Obama Administration.
    Additionally, in August, the Department of Labor issued a new 
proposal to dramatically broaden the ability of federal contractors to 
use religion as a basis to discriminate in hiring. This will open the 
door to federal contractors discriminating against LGBTQ individuals, 
people of color, women, or even those with varying religious beliefs, 
upending the government's compelling interest in preventing the use of 
taxpayer funds to perpetuate otherwise unlawful discrimination.
    During today's hearing we will explore the rollback of these civil 
rights protections. As our workplace becomes increasingly diverse, we 
need the EEOC and OFCCP to get back on track.
    I want to thank all the witnesses for their time today, and I yield 
to Ranking Member Comer for his opening statement.
                                 ______
                                 
    Mr. COMER. Yielding? The Committee Republicans have long 
been committed to policies and laws that empower Americans to 
achieve success. No one should ever be denied an opportunity 
because of unlawful discrimination. That is why there are 
important protections under Federal law to prevent workplace 
discrimination.
    While we agree our Nation's nondiscrimination laws must be 
properly enforced, workers and entrepreneurs should not be held 
back by burdensome regulations, excessive red tape, and 
overzealous enforcement actions.
    Under the Obama Administration, the Equal Employment 
Opportunity Committee, or EEOC, significantly expanded the 
employer information report, the EEO-1, to require businesses 
to collect and report employee pay data. Since 1966 the EEOC 
has required employers with 100 or more employees to submit 
demographic data annually. Before the Obama scheme was 
proposed, pay data was never part of the EEO-1 report, and for 
good reason. In 2017 the Trump Administration argued this 
mandate was unnecessarily burdensome and lacked practical 
utility. Job creators from around the country weighed in and 
voiced their concerns with this extreme regulatory mandate. Not 
surprisingly, the EEOC recently estimated that the burden of 
collecting and reporting EEO-1 information with pay data for 
2018 would be $622 million, a significant increase from EEOC's 
2016 estimate of $53.5 million annually. This led EEOC to 
conclude that the supposed benefits of collecting and reporting 
pay data did not outweigh the cost of burdens placed on our 
Nation's job creators.
    But it is not all bad news coming from the EEOC. Currently 
the Commission, which is also responsible for investigating 
charges of discrimination against employers, has the lowest 
backlog of pending charges in over a dozen years. Committee 
members on both sides of the aisle have long raised concerns 
about the Agency's backlog, so this is a promising step in the 
right direction. When American workers turn to the Federal 
Government for help, they should receive their due process in a 
timely manner.
    And we are seeing more good news from the Department of 
Labor's Office of Federal Contract Compliance Programs, or 
OFCCP. OFCCP is tasked with enforcing nondiscrimination and 
affirmative action requirements for Federal contractors. 
Religious organizations have been discouraged from seeking 
Federal contracts. So the OFCCP has proposed a rule that will 
clarify the protection retained by religious organizations that 
contract with the Federal Government. If adopted, the rule will 
encourage more employers of all backgrounds, to participate in 
the Federal contracting system and reaffirms our commitment to 
protecting religious freedoms of all Americans.
    The purpose of America's nondiscrimination laws and the 
agencies enforcing them is to give all Americans equal 
opportunities to succeed. EEOC and OFCCP play important roles 
in helping to prevent and combat unlawful discrimination, but 
they should also be encouraged to prioritize policies that are 
responsible and effective so our Nation's job creators can 
flourish and America's workplaces can be free from 
discrimination.
    Thank you, Madam Chairman, and I yield back.
    [The statement of Mr. Comer follows:]

Prepared Statement of Hon. James Comer, Ranking Member, Subcommittee on 
                    Civil Rights and Human Services

    ``Committee Republicans have long been committed to policies and 
laws that empower all Americans to achieve success. No one should ever 
be denied an opportunity because of unlawful discrimination. That is 
why there are important protections under federal law to prevent 
workplace discrimination.
    While we agree our nation's nondiscrimination laws must be properly 
enforced, workers and entrepreneurs shouldn't be held back by 
burdensome regulations, excessive red tape, and overzealous enforcement 
actions.
    Under the Obama administration, the Equal Employment Opportunity 
Commission (EEOC), significantly expanded the Employer Information 
Report-- the EEO-1--to require businesses to collect and report 
employee pay data. Since 1966, the EEOC has required employers with 100 
or more employees to submit demographic data annually. Before the Obama 
scheme was proposed, pay data was never part of the EEO-1 report, and 
for good reason. In 2017, the Trump administration argued this mandate 
was ``unnecessarily burdensome'' and ``lacked practical utility.''
    Job creators around the country weighed in and voiced their 
concerns with this extreme regulatory mandate. Not surprisingly, the 
EEOC recently estimated that the burden of collecting and reporting 
EEO-1 information with pay data for 2018 would be $622 million; a 
significant increase from EEOC's 2016 estimate of $53.5 million 
annually. This led EEOC to conclude that the supposed benefits of 
collecting and reporting pay data do not outweigh the costs and burdens 
placed on our nation's job creators.
    But it's not all bad news coming from the EEOC. Currently the 
Commission, which is also responsible for investigating charges of 
discrimination against employers, has the lowest backlog of pending 
charges in over a dozen years. Committee Members on both sides of the 
aisle have long raised concerns about the agency's backlog, so this is 
a promising step in the right direction. When American workers turn to 
the federal government for help, they should receive their due process 
in a timely manner.
    And we are seeing more good news from the Department of Labor's 
Office of Federal Contract Compliance Programs (OFCCP). OFCCP is tasked 
with enforcing nondiscrimination and affirmative action requirements 
for federal contractors. Religious organizations have been discouraged 
from seeking federal contracts, so the OFCCP has proposed a rule that 
will clarify the protections retained by religious organizations that 
contract with the federal government. If adopted, the rule will 
encourage more employers, of all backgrounds, to participate in the 
federal contracting system, and reaffirms our commitment to protecting 
religious freedom for all Americans.
    The purpose of America's nondiscrimination laws, and the agencies 
enforcing them, is to give all Americans equal opportunities to 
succeed. EEOC and OFCCP play important roles in helping to prevent and 
combat unlawful discrimination, but they should also be encouraged to 
prioritize policies that are responsible and effective so our nation's 
job creators can flourish, and America's workplaces can be free from 
discrimination. ``
                                 ______
                                 
    Chairwoman BONAMICI. Thank you, Ranking Member Comber. All 
other Members who wish to insert written statements into the 
record may do so by submitting them to the Committee Clerk 
electronically in Microsoft Word format by 5:00 p.m. on October 
2, 2019.
    I will now introduce our witnesses.
    Craig E. Leen serves as the Director of the Office of 
Federal Contract Compliance Programs at the U.S. Department of 
Labor. Prior to serving at OFCCP, Mr. Leen was the City 
Attorney of Coral Gables, Florida, where he was the General 
Counsel and Chief Legal Officer.
    Janet Dhillon is the 16th Chair of the Equal Employment 
Opportunity Committee. Chair Dhillon was nominated by President 
Donald J. Trump on June 29, 2017 and sworn in on May 15, 2019. 
Chair Dhillon practiced law in the private sector for more than 
25 years.
    Cindy Brown Barnes is a Director in the Government 
Accountability Office's Education, Workforce, and Income 
Security team. She oversees the employment and training 
portfolio. Mrs. Brown Barnes has more than 30 years of service 
performing financial, forensic, and performance audits of 
Federal agencies and programs.
    Instructions to the witnesses--we appreciate all of you for 
being here today and we look forward to your testimony.
    Let me remind the witnesses that we have read your written 
statements and they will appear in full in the hearing record. 
Pursuant to Committee Rule 7d and Committee Practice, each of 
you is asked to limit your oral presentation to a 5 minute 
summary of your written statement.
    Let me remind the witnesses that pursuant to Title 18 of 
the U.S. Code Section 1011, it is illegal to knowingly and 
willfully falsify any statement, representation, writing, 
document, or material fact presented to Congress or to 
otherwise conceal or cover up a material fact.
    Before you begin your testimony please remember to press 
the button on the microphone in front of you--I am afraid I 
didn't set a very good example this morning--so it will turn on 
and the Members can hear you. As you begin to speak the light 
in front of you will turn green, after 4 minutes the light will 
turn yellow to signal that you have 1 minute remaining. When 
the light turns red your 5 minutes have expired and we ask that 
you please wrap up.
    We will let the entire panel make their presentations 
before we move to Member questions. When answering a question, 
please again remember to turn your microphone on.
    I will first recognize Director Leen.

 TESTIMONY OF CRAIG LEEN, ESQUIRE, DIRECTOR, OFFICE OF FEDERAL 
     CONTRACT COMPLIANCE PROGRAMS, U.S. DEPARTMENT OF LABOR

    Mr. LEEN. Madam Chair, Mr. Ranking Member, distinguished 
Members of the Subcommittee, thank you for this opportunity to 
discuss the critical work of OFCCP. I believe strongly in its 
mission and I am honored to serve as its Director.
    In this Administration, OFCCP is vigorously pursuing its 
mission to enforce the civil rights protections for Federal 
contractors in Executive Order 11246, Section 503 of the 
Rehabilitation Act, and VEVRRA. These authorities touch 
approximately one-quarter of America's workforce. OFCCP is 
dedicated to ensuring equal employment opportunity for these 
workers and protecting against discrimination based on race, 
color, sex, sexual orientation, gender identity, religion, 
national original, disability, and veteran status, as well as 
enforcing pay transparency.
    Indeed, in the past two calendar years, OFCCP recovered a 
record $45 million in monetary remedies, significantly more 
than any previous administration in any 2 calendar years. OFCCP 
is as efficient and effective as it has ever been.
    A few words about myself and my passion for this work. I am 
the father of a daughter and son who were each diagnosed with 
autism as young children. In particular, my daughter, Alex, who 
is 14 years old, has profound autism and a substantial 
intellectual disability. I have struggled and fought for 
accommodations for my daughter for over a decade on an almost 
daily basis, and through these efforts became involved as an 
advocate in the disability community. I have seen through this 
experience the challenges individuals with disabilities face 
obtaining accommodations and being treated inclusively. Indeed, 
this experience led me here to OFCCP with the determination to 
make a positive impact for people with disabilities.
    There is much to be done and the numbers are startling. For 
people with disabilities, the labor force participation rate is 
approximately 20 percent compared to 60 percent generally. The 
unemployment rate is typically double the general unemployment 
rate, and the wage gap is approximately 30 percent. To address 
these numbers and to ensure that people with disabilities are 
treated inclusively by contractors, OFCCP is making Section 503 
compliance a primary focus of the Agency.
    As part of this effort, I have ordered 500 Section 503 
focused reviews, which are presently ongoing. These reviews are 
all on site at corporate headquarters across the country and 
are a comprehensive look at disability inclusion and 
nondiscrimination. More Section 503 focused reviews will be 
included in future scheduling lists.
    The Agency has also posted helpful guidance on its website, 
with training materials and best practices in disability 
inclusion. If we find violations in these reviews, we will 
remedy them. We will also encourage contractors to adopt best 
practices to avoid potential future violations. We then will 
publish a report detailing our findings to help other 
contractors and companies generally.
    The Rehabilitation Act was the first Federal statute 
focused on eliminating employment discrimination based on 
disability status and I am proud that we are making it a 
central focus of OFCCP's enforcement program.
    This autumn, I am ordering 500 VEVRRA focused reviews as to 
veterans, veterans with disabilities and military spouses, with 
the list being released around Veteran's Day. We will then do 
focused reviews on promotions to ensure that all Americans have 
a fair chance to advance in employment and to address a number 
of the groups of people that you have talked about previously, 
women, women of color, people with disabilities, trying to make 
sure that they can advance in employment.
    The Agency is fully committed to enforcement. The most 
recent scheduling list included 3,500 establishments made up of 
2,500 compliance reviews, 500 focused reviews, and 500 
compliance checks, the largest list in many years. Of course, 
enforcement and compliance assistance go hand in hand. The 
Agency is also focused on providing assistance to stakeholders 
and contractors through its new online help desk and opinion 
letter programs.
    In providing compliance assistance, OFCCP will continue to 
focus on providing transparency, certainty, efficiency, and 
recognition.
    I would like to briefly draw attention to our efforts to 
increase efficiency. OFCCP has addressed its backlog of aged 
cases, cases over 2 years old, cutting its case rate by a third 
in the past 2 years. More efficiency leads to the ability to 
conduct more reviews and help more workers.
    I would like to conclude where I began, with people with 
disabilities. These Americans make up about 20 percent of our 
population and have not been fully included in employment for 
too long. Individuals with disabilities are a significant 
untapped source of skills and talent and our country would be 
greatly benefitted by helping ensure their full employment. 
OFCCP is doing its part, and will continue to do so.
    Thank you, Madam Chair.
    [The statement of Mr. Leen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairwoman BONAMICI. Thank you, Mr. Leen.
    I now recognize Chair Dhillon for 5 minutes for your 
testimony.

   TESTIMONY OF JANET DHILLON, CHAIR, U.S. EQUAL EMPLOYMENT 
                     OPPORTUNITY COMMISSION

    Ms. DHILLON. Thank you. Good afternoon, Madam Chair, 
Ranking Member, and Members of the Subcommittee. Thank you for 
inviting me to testify here today on behalf of the Equal 
Employment Opportunity Commission. I serve as Chair of the 
EEOC, along with Commissioners Victoria Lipnic and Charlotte 
Burrows, and General Counsel, Sharon Gustafson. I appreciate 
the opportunity to appear before you to discuss the plans for 
the Agency and the challenges that we face.
    I would like to thank the Committee and the Subcommittee 
for their support of the EEOC, and I look forward to working 
with all of you and all Members of Congress to achieve the 
mission of the EEOC, to prevent and remedy unlawful employment 
discrimination and advance equal opportunity for all in the 
workplace.
    I have been at the Commission now for just over 4 months, 
and I am still learning about many aspects of the Commission's 
role. In my prior professional roles, I have seen the EEOC in 
action and the positive impact that it has made on workforces 
across the country. As Chair, I want to build on the Agency's 
legacy and continue to tackle workplace discrimination while 
striking a careful balance between enforcement and compliance 
assistance.
    To further build on this legacy, I am starting with several 
principles which are outlined in the written testimony that I 
have submitted. I will note a few highlights here.
    First, the EEOC must continue to provide excellent customer 
service. We must be responsive to employees who raise 
discrimination claims. An employee's decision to bring a charge 
can be in many instances a courageous act, but an act that can 
also be very stressful for that individual and their family. We 
owe it to these employees, as well as everyone else involved, 
to honor their courage by swiftly addressing their concerns. 
Too often the sad reality is that justice delayed is justice 
denied. Evidence can be misplaced, memories will fade. The 
opportunity to quickly stop and remedy a discriminatory 
practice can also be lost, potentially to the detriment of 
other employees. So it is critical that our private sector 
charges and our Federal complaints hearings, and appeals are 
handled promptly and fairly. To do so, we must continue to 
effectively manage our workload across all program offices.
    Second, the EEOC will continue to work vigorously to 
protect vulnerable workers. To that end I have established an 
internal task force to take a closer look at vulnerable workers 
and the effectiveness of our current enforcement and education 
efforts. I have challenged this task force to step back and 
look at everything fresh and see if there are things that we 
can do better to maximize our effectiveness with these 
populations.
    Third, the Agency will continue to focus on its use of 
alternative dispute resolution and conciliation to achieve the 
Agency's mission. The EEOC's successful and popular mediation 
program is a means by which we can promptly resolve charges and 
bring benefits to victims of discrimination. In fiscal year 
2018, the Agency conducted more than 9,000 mediations, which 
resulted in nearly $166 million in benefits being paid to 
victims of employment discrimination. Conciliation efforts are 
another way for the EEOC to effectively enforce Federal 
employment antidiscrimination laws. Conciliation is a 
voluntary, informal, and confidential process that occurs once 
the EEOC has determined that there is reasonable cause to 
believe that discrimination has occurred. The Agency has an 
obligation to attempt to resolve findings of discrimination 
through conciliation before the Agency considers litigation. 
And we will remain focused on ensuring that our efforts are 
fair and taken in good faith.
    Finally, litigation is an important tool in our toolbox, 
but I believe it is a tool of last resort. When it does become 
necessary, EEOC's litigation will be conducted in accordance 
with the highest ethical standards.
    In conclusion, discrimination threatens equal opportunity, 
it holds people back from pursuing their dreams, and despite 
the progress that we have made as a nation, bias in employment 
still happens far too often. We must continue to work together 
to bring America to a place where everyone has a fair chance to 
work, to provide for their families, and to contribute to our 
economy and our society.
    I appreciate the opportunity to appear before you today and 
I look forward to answering your questions.
    [The statement of Ms. Dhillon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairwoman BONAMICI. Thank you for your testimony, Chair 
Dhillon.
    I now recognize Miss Brown Barnes for 5 minutes for your 
testimony.

     TESTIMONY OF CINDY BROWN BARNES, DIRECTOR, EDUCATION, 
WORKFORCE, AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. BROWN BARNES. Chair Bonamici, Senior Republican Comer, 
and Members of the Subcommittee, I am pleased to be here today 
to discuss our prior work across three GAO reports, examining 
the challenges facing the Federal Government, and overseeing 
employers' compliance with equal employment opportunity 
requirements.
    Today I will discuss the progress OFCCP and EEOC have made 
in implementing 12 recommendations from our 2016 report on 
strengthening OFCCP's oversight of Federal contractors and our 
2017 report to increase equal employment opportunity in the 
technology sector. I will also discuss the exemptions sought by 
faith-based grantees from nondiscrimination laws related to 
religious based hiring.
    In our September 2016 report on OFCCP, we found that 
weaknesses in OFCCP's compliance evaluation process limited its 
ability to ensure that Federal contractors comply with 
nondiscrimination provisions. We made six recommendations, as 
you can see from the table on the screen. OFCCP has taken 
action to fully implement the first three of our 
recommendations; however, OFCCP has not fully implemented the 
remaining recommendations, four, five, and six on the screen.
    I want to highlight recommendation number five, involving 
monitoring of the affirmative action plans. We found that OFCCP 
relies significantly on voluntary compliance by Federal 
contractors, and this approach cannot ensure that contractors 
were complying with basic requirements to develop and maintain 
an AAP. An AAP is a management tool that includes practical 
steps to address underrepresentation of women and minorities, 
such as goals for expanding employment opportunities to these 
groups, and instances in which they are underrepresented.
    OFCCP's regulations generally that cover contractors 
prepare and maintain an AAP within 120 days of contract 
commencement and update it annually. At the time of our review, 
we found that OFCCP had no process for ensuring that 
establishment met these requirements.
    OFCCP has taken steps to address this recommendation, such 
as developing a web-based portal to allow contractors to upload 
their AAPs to assist OFCCP in reviewing and prioritizing 
resources, among other actions. However, OFCCP needs to obtain 
OMB approval to fully implement this recommendation.
    In our November 2017 report on diversity in the technology 
sector, we found that weaknesses in EEOC's and OFCCP's 
oversight efforts impact their ability to ensure 
nondiscrimination and equal employment opportunity in the 
technology sector. Specifically, we found that while the 
estimated percentage of minority technology workers had 
increased from 2005 to 2015, there have been statistically 
significant increases in the number of Asian and Hispanic 
workers, but no growth either for females or black workers.
    As a result of our work, we made five recommendations to 
OFCCP and one to EEOC, as you can see from table 2 on the 
screen. Of the five recommendations made to OFCCP, the Agency 
has fully implemented the one focused on requiring contractors 
to desegregate demographic data for the purpose of setting 
placement goals in the AAP.
    I want to highlight the recommendation from EEOC at the 
bottom of the table. EEOC has taken some action towards 
addressing missing industry code data, which has broader 
implications in the technology sector. However, EEOC has not 
fully implemented this recommendation.
    EEOC cannot analyze charge data by industry to help 
identify investigation and outreach priorities. As a part of an 
effort to overhaul its data system, EEOC has begun developing 
an employer master list that will provide a source of employer 
information, including industry codes. This will enable EEOC to 
focus on industries with EEO disparities.
    In our October 2017 report on faith-based grantees, we 
found that few grantees sought an exemption based on the 
Religious Freedom Restoration Act. We found that from 2007 
through 2015, 9 of the 117 potentially faith-based 
organizations certified that they were exempt from 
nondiscrimination laws related to religious based hiring.
    Thank you. This concludes my prepared statement.
    [The statement of Ms. Brown Barnes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairwoman BONAMICI. Thank you for your testimony.
    Under Committee Rule 8a we will now question witnesses 
under the 5 minute rule alternating between the parties.
    I now recognize myself for 5 minutes.
    Americans are living and working longer, and we must do all 
we can to make sure they are protected from age discrimination. 
According to recent data from the Census Bureau and the Bureau 
of Labor Statistics, the percentage of retirement age Americans 
in the labor force has doubled since 1985. Unfortunately, age 
discrimination in the workplace is still disturbingly 
pervasive, and it is a significant factor in older workers' 
long-term unemployment. According to an AARP survey released 
last year, three in five older workers reported seeing or 
experiencing age discrimination on the job.
    Earlier this year, this Committee approved the bipartisan 
Protecting Older Workers Against Discrimination Act, or POWADA. 
The bill would amend our four core civil rights laws, the Age 
Discrimination and Employment Act, the anti-retaliation 
provision of Title VII of Civil Rights Act, the Americans with 
Disabilities Act, and the Rehabilitation Act of 1973, to make a 
Congressional intent clear. Any unlawful discrimination in the 
workplace is unacceptable.
    Chair Dhillon, the Gross v. FBL Financial Services decision 
applied the ``but for'' standard to age discrimination, 
requiring the EEOC to demonstrate that age was essentially the 
sole factor leading to an adverse employment action. Yet, under 
other civil rights law, such as Title VII, the motivating 
factor test is applied.
    How does having different standards influence the EEOC's 
efforts and outcomes? And would the legislation this Committee 
passed, the POWADA bill, Protecting Older Workers Against 
Discrimination Act, how would that strengthen the EEOC's 
ability to enforce the ADEA?
    Ms. DHILLON. Well, thank you, Chairwoman, for that 
question.
    Certainly, age discrimination cases and claims and charges 
are a focus of the EEOC's effort. In fact, in the most recent 
fiscal year, over 22 percent of the charges that we received 
involved allegations of age discrimination. So, I agree with 
you that it is a significant issue and the Commission is 
focused on remedying age discrimination cases.
    I can't support or not support a particular piece of 
legislation. I can say that obviously the ``but for'' standard 
is a higher standard. But that does not mean that the 
Commission is any less committed to investigating, and where 
appropriate, litigating charges of age discrimination. You have 
my commitment, and I know you have the commitment of my fellow 
commissioners, as well as our General Counsel and all the 
staff, that we take age discrimination charges very seriously 
and we pursue them vigorously.
    Chairwoman BONAMICI. But you agree that the motivating 
factor test would be easier to prove a case of age 
discrimination?
    Ms. DHILLON. It is a lower standard. It is a lower 
standard, yes.
    Chairwoman BONAMICI. Thank you. I request unanimous consent 
now to submit a letter into the record from former EEOC chair 
Jenny Yang and former EEOC General Counsel David Lopez.
    Without objection. I have the letters introduced.
    According to this letter from the former EEOC Chair and 
General Counsel, ``The Agency's 2017 efforts to update the 
enforcement guidance on unlawful harassment were critical 
because, according to the letter, the EEOC's guidance on 
harassment has not had a comprehensive update for over 20 
years. As the MeToo Movement has brought nationwide attention 
to the pervasive problem of workplace harassment, the demand 
for up to date guidance is even greater.''
    The letter also notes that the enforcement guidance ``was 
the product of extensive research, analysis, and deliberation 
informed by public hearings, public testimony, public input, 
and the work of the task force.''
    The comment period for guidance closed on March 21, 2017, 
yet there is still no final guidance issued.
    Chair Dhillon, where is the guidance and the review process 
and when will it be finalized? And I ask that question because 
in the wake of the MeToo Movement we would like to have some 
specific examples of how the EEOC is using its enforcement 
tools, including strategic enforcement in addressing and 
preventing harassment in the workplace.
    Ms. DHILLON. Thank you, Chairwoman, for your question. And 
I am glad that you called out the work of the task force, and 
particularly the efforts of former Acting Chair Lipnic, who 
convened that task force and issued a very comprehensive and, 
frankly, in my opinion extremely well done work on the problem 
of harassment in the workplace. And I would note that she was 
far ahead of the curve because that was issued well over a year 
before the MeToo Movement came into public consciousness.
    On our website, we have that task force report, we also 
have tools for employers and employees on how to address sexual 
harassment and harassment claims and allegations of 
discrimination. And these are all very helpful tools and I 
would encourage people to look at them and consult with them. 
The guidance itself is still in the OMB process.
    Chairwoman BONAMICI. Do you have any sense of when that 
will be completed?
    Ms. DHILLON. I do not.
    Chairwoman BONAMICI. And I now request unanimous consent to 
enter letters into the record from the Human Rights Campaign 
relevant to this hearing.
    Without objection.
    I yield back the balance of my time and recognize Mr. Comer 
for your questions. Excuse me, I am sorry, recognize Ms. 
Stefanik from New York for your questions.
    Ms. STEFANIK. Thank you, Chairwoman Bonamici.
    I want to focus on women in the workplace. Today there are 
nearly 75 million women working in the United States, the most 
ever. Of the 2.8 million jobs created within the past year, 58 
percent have gone to women. Women are graduating college at a 
higher rate than their male counterparts, 56 percent of degrees 
conferred last year, and women are increasingly their family's 
primary breadwinners. We must address unique challenges facing 
women in the workforce.
    Earlier this year, I introduced the Wage Equity Act and 
have earned co-sponsorships of over 50 of my colleagues. My 
bill, the Wage Equity Act, addresses the gender pay gap and 
reinforces equal pay for equal work by creating a self-audit 
system to encourage businesses to proactively conduct a pay 
analysis audit and identify any potentially unlawful pay 
disparities. It allows businesses to quickly rectify any of 
these disparities while being protected from lawsuits.
    So, my question for Chairwoman Dhillon and Director Leen, 
do you believe that the creation of such a self-audit system 
would be beneficial to enhance employer compliance and address 
unlawful pay disparities?
    Mr. LEEN. Thank you for that question. Pay disparities 
based on race or gender, or any of the protections we enforce, 
are problematic. And when they are caused by discrimination, 
they are illegal. I would tell you I can't speak specifically 
as to a particular piece of legislation, but I can tell you 
that OFCCP is doing that already with Federal contractors. We 
require Federal contractors every year to assess their 
compensation and to make sure that there are not unexplainable 
pay disparities based on gender and race.
    Typically, what we do is they look to see the size of the 
gap, and if it is more than two standard deviations and it 
can't be explained by a legitimate business reason that is 
nondiscriminatory, they need to fix it. If they don't fix it, 
then we come in and we make them fix it.
    Ms. STEFANIK. So, the concept of a self-audit system, we 
are trying to incentivize businesses if they identify a pay gap 
to close that pay gap.
    Ms. Dhillon, do you have any comments on that?
    Ms. DHILLON. Thank you, Congresswoman.
    Again, like Mr. Leen, I cannot comment on a particular 
piece of legislation or proposed legislation, but what I can 
say is that I do believe that employers do want to do the right 
thing. And by and large they do want to pay their employees 
fairly. So, I think anything that encourages them along those 
lines could be helpful. And I certainly look forward to working 
with you and working with your staff, and any kind of technical 
assistance that we can provide we would be happy to do so.
    Ms. STEFANIK. Sure. Setting aside the specifics of the 
bill, perhaps I should have said that at the end, the concept 
of a self-audit, so incentivizing businesses to look at their 
data proactively, reaching out to the EEOC to make sure that if 
there are disparities they are closing those potential pay 
gaps. Is that concept something that you think would be helpful 
in terms of making sure businesses are doing right by the law, 
which from my perspective, when I visit businesses, they are 
trying to do that. The concept of a self-audit. Based upon 
Maine, Massachusetts, Maryland, this is not a novel concept. 
Many states have self-audit systems in place.
    Mr. LEEN. OFCCP has a lot of experience in this area and it 
is certainly a best practice to do a self-audit every year. For 
Federal contractors, though, it is required by law.
    Ms. STEFANIK. Great. Best practice, that is great. So I 
think that data would be helpful.
    My next question is through the Federal contractors, 
because they are required to do that every year, how is that 
more beneficial than the broad data collection in the EEO-1 in 
regard to identifying these pay discrepancies?
    Mr. LEEN. Well, the EEO-1 data, that basically asks for 
sort of average data about salaries based on gender, for 
example, in nine categories. So what OFCCP--when we do an 
audit, we get much more specific data.
    Ms. STEFANIK. Right, more nuanced data.
    Mr. LEEN. Well, it is by--it is very granular, it goes all 
the way to the person. And we are able to do regression 
analyses based on job title or job group. That sort of data 
allows us to make a finding of discrimination.
    More generalized data typically can't be used to make a 
finding of discrimination.
    Ms. STEFANIK. Great. With that, I yield back.
    Chairwoman BONAMICI. Thank you, Representative Stefanik.
    Now I recognize Dr. Schrier from Washington for 5 minutes 
for your questions.
    Dr. SCHRIER. Thank you, Madam Chair, and thank you to our 
witnesses today.
    I am going to direct my questions today to you, Chair 
Dhillon. I was concerned to hear that the EEOC at the end of 
this month is going to stop collecting data that would help 
identify and address pay disparities based on gender, race, and 
ethnicity. And we have talked a lot about equal pay for equal 
work. And in this Committee, I told my own story about coming 
out of residency having earned $4.00 an hour and was so excited 
to have a job offer that I immediately just said, sure, I will 
take it, only to find out later that some of my colleagues, all 
male, had the good sense to negotiate a higher salary. And, of 
course, when you start with a higher salary, then any increases 
from then just compound it.
    But mine is just an anecdote and I don't think we can make 
decisions based on anecdotes and conjecture. And that is why I 
really think we need to collect this data. And it sounds, from 
your testimony, that it is really clear that you acknowledge 
that there are systemic disparities in pay related to gender 
and race, whether intentional or not.
    And so my question is, why would we stop getting this data 
when data helps us make decisions?
    Ms. DHILLON. Well, thank you, Congresswoman, for your 
question.
    Currently the EEOC is under court order to collect the EEO-
1 component 2 pay data, and that data collection is ongoing 
pursuant to the court order. Earlier this month the Commission 
filed--or submitted to the Federal Register required 
documentation under the Paperwork Reduction Act seeking 
permission from the OMB to collect data for the next 3 years. 
So we go to the OMB and we need to get permission through the 
Paperwork Reduction Act process in order to be allowed to 
collect data in the future. And in going through that, we have 
to actually make a showing to the OMB, we have to balance the 
burden that will be placed on the people who we are asking to 
provide the data against the utility.
    In the notice that we filed in the Federal Register for 
public comment last week, what the Commission said was that on 
a going forward basis we were not seeking authorization to 
collect pay data, the so-called component 2 data. And the 
reason for that, as laid out in the notice, was really two-
fold.
    First of all, relying on our data scientists and 
statisticians at the EEOC, they did a burden analysis of the 
ongoing component 2 pay data collection and concluded that the 
burden to the responding community, to the employers, was about 
10 times--actually more than 10 times higher than had 
originally been estimated. So we had to take that into account. 
Then we looked at the utility of that data, particularly as 
compared to the heightened burden, and concluded that we 
couldn't seek--under the requirements of the Paperwork 
Reduction Act, we could not seek additional authorization to 
collect the data. I have concern--
    Dr. SCHRIER. In the interest of time, I am surprised that 
it is that burdensome, and simply because Congresswoman 
Bonamici and I were just at Nike, I visited Starbucks, they 
have voluntarily--like Miss Stefanik was talking about--they 
voluntarily collected this data just because they wanted to do 
their own self-improvement, which is very noble. But I also 
don't think that we can just depend on the kindness and the 
goodness of businesses to collect this data. I cannot imagine 
that in this day of computers and data entry that it would be 
really that hard to collect this. And I notice that there was 
no comment period, so the public was not invited to comment. Is 
that because you--
    Ms. DHILLON. Congresswoman, the 60-day notice has been 
filed and so the public does have an opportunity to provide 
comments. We solicit comments on that, on what was put into the 
Federal Register.
    Dr. SCHRIER. And then one last question, given that Nike 
and Starbucks are able to do this so easily, have you been able 
to identify some better practices that perhaps they are using, 
perhaps other industry is using, to get at the root of this 
information? Because it may be a burden for companies, but it 
is really a burden for people who are systematically being paid 
less than they should be paid. Is there a better way to get 
this information?
    Ms. DHILLON. Well, I think there is a better way to do a 
pay data collection. And, in fact, during the comment period in 
2016, a number of groups and employers made suggestions to the 
EEOC, which unfortunately were not adopted. What the Commission 
said in the Paperwork Reduction Act notice that was submitted 
to the Federal Register, is that we are committed to going 
through a rulemaking, a Title VII rulemaking, which in my view 
is what should have been done in 2016, to allow for robust 
public comment and input into how we craft a pay data 
collection that, while there is going to be a certain level of 
burden involved, it is not undue burden, but at the same time 
collects data that is useful to the EEOC in its enforcement 
mission.
    Dr. SCHRIER. Thank you. I see we are out of time.
    Chairwoman BONAMICI. Thank you, Representative.
    They have called votes on the floor. Before we go to the 
floor, I am going to recognize Dr. Foxx, the Ranking Member of 
the Full Committee, for 5 minutes for your questions. And after 
Dr. Foxx's questions, we will recess until immediately after 
the last vote and then return to the Committee.
    Dr. Foxx.
    Mrs. FOXX. Thank you very much, Chairwoman. And I want to 
thank our witnesses for being here today. I think we have 
superbly prepared and talented people here today. And I want to 
appreciate all three of you for your comments and for your 
willing to serve in the positions that you are in.
    Chair Dhillon, congratulations to you on your confirmation 
and thank you for being here.
    In its final year, the Obama Administration proposed EEOC 
collect this employee pay data, which has been the subject of 
the conversation recently. My understanding is the collection 
would increase the data fields provided by employers in each 
EEO-1 report 20-fold, from 180 to 3,660 fields. As you 
indicated, your new cost estimate for employers to complete and 
submit this revised report with pay data is $622 million, more 
than 11 times higher than the Obama Administration's estimate.
    Do you agree that requiring additional reporting of 
employee pay data to the Federal Government not only creates 
enormous compliance costs, but also raises significant privacy 
and confidentiality concerns for workers and businesses?
    Ms. DHILLON. Yes, Congresswoman, I agree with you.
    Mrs. FOXX. And I am glad to hear that you think there is a 
better way to do this.
    I would like to explore with you whether the pay data the 
court is now requiring EEOC to collect will have any value. In 
his court declaration in April, EEOC's chief data officer 
raised significant concerns about the data's validity and 
reliability, calling attention to such issues as to whether the 
data would enable valid comparisons within and between 
employees. He also stated that EEOC never conducted a true 
pilot study on collecting pay data, even though the National 
Academy of Sciences in 2012 recommended the completion of a 
true pilot study before embarking on a full-scale collection of 
pay data.
    Do you share the EEOC chief data officer's concerns 
regarding the utility of the pay data collection?
    Ms. DHILLON. Congresswoman, yes, I do. And in particular, 
the point that you raised about the lack of a pilot study is 
something that is of significant concern to me. The National 
Academy of Sciences in 2012 actually made six recommendations 
for a pay data study. The EEOC unfortunately only adopted one 
of those recommendations.
    Mrs. FOXX. Right.
    Director Leen, thank you again for testifying. I would like 
to congratulate you on the proposed rule regarding the 
religious exemption for Federal contractors that OFCCP 
published last month.
    At a hearing in June in this Committee, Republicans found 
themselves defending religious liberty. Republicans will always 
stand up for religious freedom, but it was disheartening to see 
it under attack. OFCCP's proposed rule relates to the religious 
exemption for Federal contractors based on the First Amendment, 
recent Supreme Court decisions and Title VII Civil Rights Act. 
Do you view the proposed rule as making new law or merely 
restating and clarifying existing law?
    Mr. LEEN. Thank you for that question. I have to be a 
little limited in what I can say about the proposed rule 
because it is a pending proposed rule.
    We have received over 109,000 comments on the rule and we 
are looking at them, and we are open-minded, and we are 
considering how to move forward.
    I can answer your question, though, based on what we have 
said in the preamble of the NPRM, which is that the intent is 
to clarify. My Agency does not make law, Congress makes law.
    Mrs. FOXX. Well, thank you very much for that. We 
celebrated Constitution Week this week and I think it is 
extraordinarily important that we never lose sight that the 
Bill of Rights begins with the First Amendment and the very 
first right is the freedom of religion. And I think that is 
something we must remind people of all the time.
    Thank you all very much, again.
    Thank you, Madam Chair.
    Chairwoman BONAMICI. Thank you, Representative Foxx. And 
now the Committee will be recessed. We have two votes. It 
should be probably 20-30 minutes and we will resume after the 
last vote is concluded.
    The Committee is in recess.
    [Recess]
    Mrs. HAYES. The Chair will continue to recognize Members 
for 5 minutes.
    And next we have Chairman Scott from Virginia for 
questioning.
    Mr. SCOTT. Thank you.
    Chairman Dhillon, you have had several questions on the pay 
data, how can you effectively, proactively do anything about 
pay discrepancies without the data?
    Ms. DHILLON. Congressman, thank you for your question.
    The EEOC enforces compensation discrimination laws now, we 
investigate charges, we conciliate charges, where appropriate, 
we bring litigation to obtain relief for charging parties. In 
addition, we engage in substantial outreach efforts, educating 
employers and employees as well, and then we have resources on 
our website. So I think that the Agency is actively and 
aggressively enforcing compensation discrimination laws.
    Mr. SCOTT. Mr. Leen, you have a proactive obligation, how 
would pay data help you fulfill your mission?
    Mr. LEEN. Congressman, we receive the pay data, as I 
mentioned, that is much more specific through our neutrally 
scheduled audits. So the pay data we typically get is the pay 
by employee, by race, and gender. And we are able to put those 
employees into pay analysis groups, run regression analyses, 
and then determine whether there is a statistically and 
practically significant finding. And then we require them to 
fix it.
    What I was mentioning before was we could not do that with 
the EEO-1 component 2 pay data because it is too general. So 
for us, we are going to continue to focus on the data that we 
get in our neutrally scheduled audits.
    Mr. SCOTT. You get more specific information than the 
component 2 data?
    Mr. LEEN. Yes, much more specific.
    Mr. SCOTT. Then why is it so expensive to just do the 
little component 2 data?
    Mr. LEEN. Well, I can tell you from the perspective of 
OFCCP that when they have to provide us this data, it is when 
they have been neutrally scheduled for an audit, which does not 
occur every year. It occurs whenever we include them on the 
scheduling list. There are costs associated with OFCCP 
compliance that we are keenly aware of and we try to reduce. 
But typically that is--you sign up for that by being a Federal 
contractor. That is something you agree to do affirmatively in 
taking the Federal--in basically being in the Federal 
procurement system. And it is only when you are audited that 
you have to provide us that information.
    Mr. SCOTT. Okay. Let me ask another question on religious 
discrimination. If someone has strong religious views, it is my 
understanding that they can discriminate now?
    Mr. LEEN. Congressman, absolutely not. They cannot 
discriminate just because they have strongly held religious 
views.
    Mr. SCOTT. Okay. What does the new guidance allow them to 
do that they couldn't do before?
    Mr. LEEN. The new proposed guidance, which is a pending 
rule making, so I am limited as to what I can say, provides 
clarifying definitions related to the present regulation that 
is already in OFCCP's regulations, which are based on Title 
VII. And the proposed rule would provide additional 
definitions, as well as an interpretive rule, which basically 
says that the rule would be interpreted to the full extent of 
the Constitution.
    Mr. SCOTT. You are aware of the organization in South 
Carolina that is running a child placement agency that is 
discriminating based on religion with Federal money?
    Mr. LEEN. Mr. Scott, what I would--what we do is if they 
are a Federal contractor and they are discriminating against 
their employees, we would prevent that. And the way we do that 
is if a complaint was made, we would go in and we would fix it, 
or if we neutrally schedule them for audit.
    Mr. SCOTT. So if it is a Federal contractor they are not 
able to discriminate based on religion?
    Mr. LEEN. They are not able to discriminate based on 
religion against their employees. Unless there is--the 
religious exemption applies, and then they are allowed to 
favor--they are--under the current religious exemption, they 
are allowed to favor employees based on religion. That 
exemption goes all the way back to Title VII.
    Mr. SCOTT. Now, does religion include favoring people who 
belong to their particular church?
    Mr. LEEN. Yes.
    Mr. SCOTT. And if it is an all White church, that pretty 
much excludes a lot of different groups, wouldn't it?
    Mr. LEEN. If it were--the point--I don't know if I agree 
with the premise there. We don't allow discrimination based on 
race, even if religion is given as the reason for that. That is 
in the preamble to the NPRM. We cite to the Bob Jones 
University case. And, in fact, that principle applies to every 
protected group that OFCCP protects. You cannot discriminate 
against someone based on their gender, gender identity, sexual 
orientation, national origin, race, based on disability status, 
based on veteran status, because of religion. That we do not 
permit.
    Mr. SCOTT. I am sorry, just for clarification, did you say 
that sexual orientation is a protected class?
    Mr. LEEN. Yes, it is. It is a protected class for OFCCP 
because it is expressly included in our executive order.
    Mrs. HAYES. Thank you.
    I now recognize the gentleman from Kentucky, Mr. Comer.
    Mr. COMER. Thank you.
    Director Leen, thank you for testifying today. OFCCP's 
proposed rule clarifying the religious exemption for Federal 
contractors states that religious organizations provided 
previous feedback to OFCCP that they were hesitant to bid on 
Federal contracts because of uncertainty surrounding the scope 
and application of the religious exemption.
    Could you elaborate on those concerns? And do you believe a 
rule clarifying the religious exemption will encourage more 
organizations to participate in the Federal contracting system?
    Mr. LEEN. Yes. I can elaborate on that a little bit. I am 
limited again in talking about the proposed rule based on the 
fact that it is pending. I can talk about what is in the 
preamble, and I can tell you a little bit about some of the 
goals that are expressed in the preamble.
    So, for example, you asked about religious organizations. 
Very few--the percentage of Federal contractors that are 
religious organizations is quite low, it is less than 1 
percent. So we are not talking about a huge group of companies 
to begin with.
    In addition to that, there has been a concern because of 
the lack of clarity in OFCCP's regulations that a religious 
organization that wishes to be a Federal contractor is not 
exactly certain as to what that entails. And, in fact, there is 
a concern by some religious contractors that have been 
expressed to me, that they have to actually sacrifice a portion 
of their religious character in order to be a Federal 
contractor. That concern I have. I have that concern. Religious 
discrimination is a problem, be it against an individual based 
on their religious beliefs, or a religious organization. The 
First Amendment does not allow discrimination based on 
religion.
    So that is a concern. It is 1 of the 10 protections OFCCP 
is entrusted to protect, just as important as the other 9.
    Mr. COMER. Director, we have heard from employers that 
OFCCP enforcement and interpretations of the law and its 
purview vary widely from regional office to regional office. 
This can be especially challenging for companies that operate 
in multiple states around the country.
    What are you doing to supervise OFCCP's regional offices to 
ensure they interpret and apply the law consistently and 
fairly?
    Mr. LEEN. We are taking several actions in that regard. 
First, we issued what is called the preliminary determination 
notice directive, and that directive ensures that whenever 
OFCCP is going to issue a preliminary finding, that has been 
reviewed by both career staff and myself in the national office 
to make sure that what we are doing is consistent across all 
regions and that there is substantial competent evidence 
supporting what action we are taking.
    In addition to that, we are--it has been--let me tell you, 
it has been a focus of--we have quarterly senior leadership 
meetings with our regional directors, it is a focus of mine in 
every one of those meetings that you can't be treated 
differently in Miami than you are being treated in Seattle. We 
need to be strict in enforcing the law, but we need to be 
equally strict in enforcing the law. And we also need to make 
sure that we are achieving remedies in all parts of the country 
in the same way. It shouldn't depend on who the Regional 
Director is.
    Mr. COMER. Chair Dhillon, you discussed in your testimony 
that EEOC has made significant progress in addressing and 
reducing the charge backlog. This is welcome news since members 
of this Committee on both sides of the aisle have been critical 
of the EEOC's inability to keep the backlog at a manageable 
level, resulting in protracted investigation and litigation 
that creates unnecessary uncertainty for workers and employers.
    I agree with you that justice delayed is justice denied. 
With this in mind, could you elaborate on what EEOC is doing to 
ensure discrimination charges are investigated fairly and 
resolved promptly?
    Ms. DHILLON. Thank you, Congressman, and I appreciate your 
kind words and I know that all the hardworking employees at the 
EEOC very much appreciate it, because it has been an enormous 
effort.
    One of the changes or enhancements to the process that EEOC 
embarked on under Acting Chair Lipnic's leadership and that I 
affirm and support, is paying more attention at the intake 
stage. So when an employee comes to the EEOC with a concern, 
they can schedule an appointment or they can come in on a walk-
in basis and an investigator can sit with that employee and 
talk to them about what their concern is. And what that does it 
is gives the EEOC very early on an opportunity to appropriately 
direct that potential charge. It may be the case that 
particular employee has a complaint that is covered by a law 
that the EEOC does not enforce. So rather than taking a charge 
and going through the process, we can instead swiftly direct 
that employee to where they need to go to get appropriate 
redress. It may be that when the employee understands the 
process, including the fact that their employer is going to be 
notified, they may decide they do not want to proceed at that 
point.
    So the intake process has been a valuable part of helping 
us to manage our inventory.
    Mr. COMER. Thank you.
    Madam Chair, I yield back.
    Mrs. HAYES. Thank you.
    I now recognize from Nevada, Miss Lee.
    Ms. LEE. Thank you, Madam Chair. Thank you all for being 
here and dealing with our vote situation.
    Listen, earlier this week this Committee in a bipartisan 
manner passed the Older Americans Act, which provides critical 
nutrition, legal, and transportation services for older 
Americans, which comes obviously at a time when we are 
experiencing a shift in our national age demographics as more 
and more baby boomers are retiring. Which brings me to think 
about the future of work and the number of dynamics that we 
must evaluate, especially in terms of worker protections.
    In my home State of Nevada, we have well known industries 
that drive our economy. And as every industry is unique, there 
are always cases that affirm the need for robust worker 
protections and an overseer of equity in our workplace. As an 
example, we have Deborah Jeffries, who has been a cocktail 
server at Bally's Las Vegas Hotel and Casino benefitting from a 
union contract through Culinary Union 226. She has been able to 
work no matter her age, which has been an important factor for 
many companies within the industry who consider it when they 
are hiring. And as an example, another local casino was just 
sold and its cocktail servers were all terminated and not 
rehired because of their age. Deborah obtained her same pay as 
her male counterparts and has seniority and pay and will 
eventually retire with security and dignity.
    Chair Dhillon, as you said earlier, age discrimination 
charges are about 20 percent of the charges the EEOC receives. 
Earlier this year, as the Chair Bonamici talked about, we 
passed a bipartisan, again POWADA, the Protecting Older Workers 
Against Discrimination Act. Have you reviewed POWADA? And, in 
your view, will this legislation strengthen EEOC's ability to 
enforce Age Discrimination in Employment Act?
    Ms. DHILLON. Well, thank you, Congresswoman Lee, for your 
question.
    As I did testify earlier, charges related to age 
discrimination claims are a substantial part of the EEOC's 
charge inventory. Indeed--
    Ms. LEE. A yes or no, will it--
    Ms. DHILLON. I can't comment on a particular piece of 
legislation. What I can say is that myself, my fellow 
commissioners, indeed, the entire commission, is motivated and 
devoted to pursuing these kinds of claims. And if there is 
additional legislation that is passed, we are committed to 
enforcing that law as well.
    Ms. LEE. Okay. Would you mind providing EEOC's views in 
writing with respect to that for the Committee?
    Ms. DHILLON. We can certainly provide technical assistance 
to the Committee.
    Ms. LEE. Thank you.
    As Ranking Member Comer just talked about, in 2008 you had 
1,968 FTEs, you reduced your backlog by 19.5 percent, which is 
incredible. What is even more surprising is according to a 
report from Politico yesterday, you had on average 758 
investigators in 2018, which was down from 825 that EEOC had on 
average during the Obama Administration.
    How, with these limited resources--you spoke about more 
attention given at intake, were there any other factors that 
led to this reduction and how were you able to achieve that?
    Ms. DHILLON. Well, Congresswoman, I saw that Politico piece 
as well and I actually reviewed some data and I don't 
completely agree with the figures that Politico cited. We 
currently have 765 investigators. We added investigators on 
staff during fiscal year 2019 and also added investigators on 
staff in 2018.
    But in addition to the intake process, I think the backlog 
has been managed down so that we now have a workable inventory. 
What that allows our investigators and our attorneys to do is 
to tackle the charges when they are new. And it is easier to do 
because memories are clearer, the evidence is more readily 
available, and so you can move charges through the process more 
effectively and more efficiently because the events are still 
fresh in people's mind.
    So I think that part of our ability to effectively manage 
our inventory now is a function of the fact that the backlog 
has been reduced. And that is due to a tremendous amount of 
hard work by all of the employees of the EEOC. And I really 
think that they should be commended for their work
    Ms. LEE. Thank you.
    Madam Chair, before I end, I just would like to submit into 
the record letters from the Washington Lawyers' Committee 
sharing workers' experience that detail women of color and 
workers with disabilities' cases being dismissed or being given 
the right to sue letters in such little time that it is hard to 
imagine that these claims could have been investigated. It may 
be because of your intake procedure, but I would like to enter 
those into the record.
    Mrs. HAYES. Into the record without objection.
    I now recognize from South Dakota, Mr. Johnson.
    Mr. JOHNSON. Thank you very much.
    I want to start by thanking the panelists for their efforts 
to fight against unlawful discrimination. Some of you have done 
it for many years and our country is better off because of your 
efforts, so thank you.
    I also want to thank the Chair and the Ranking Member for 
having this hearing. I think the First Amendment is a beautiful 
part of the American experience and I think protecting 
religious liberty has long been a fantastic powerful part of 
our country's history. So I am glad to continue that 
conversation.
    A question for Ms. Brown Barnes and then, Mr. Leen, you 
could feed in as well.
    But I was intrigued by the 2017 GAO study that did 
interviews with six faith-based Federal grantees. And all six 
of those organizations indicated that, you know, maintaining 
their religious character was important to them. And if there 
are any key takeaways from that report, whether it was 
interviews or any particular insights that you have, I would be 
interested in them.
    Ms. BROWN BARNES. The key takeaways is that they felt that 
coreligionists, or those that share their belief and faith, 
help them accomplish their mission.
    Mr. JOHNSON. I mean it seems to me that would be important 
for secular organizations too, right? I mean let us have a 
purpose drive approach toward the mission of this nonprofit, or 
of this corporation. I mean let us have a shared end in sight. 
So I would think that is not of importance only to religious 
organizations, but all organizations. Is that right, you think?
    Ms. BROWN BARNES. Yeah, I think that is right, but we just 
heard specifically that in order to do or provide the type of 
services, the type of community outreach, the things that they 
were doing, that it was helpful for them to have 
coreligionists.
    Mr. JOHNSON. Yeah, sure.
    Mr. Leen?
    Mr. LEEN. What is important to me, relating to religious 
organizations that are Federal contractors or which to be 
Federal contractors, is to ensure that we are following recent 
Supreme Court precedent, executive orders, guidance from the 
Attorney General, that we are following the First Amendment. 
That is important to me.
    So we have proposed a rule. We have received over 109,000 
comments. I am limited in what I can say, other than that, 
because I need to look at those comments to make sure that we 
are considering everything that should be considered in 
proposing a rule.
    As stated, though, in the preamble, religious liberty is a 
core liberty, a core freedom. As I mentioned before, the 
executive order expressly mentioned 10 protections, religion 
being one of them. Title VII had a religious exemption. So this 
is something that goes back many years. So really all the way 
back to the Bill of Rights.
    Mr. JOHNSON. Yeah, I think that is well said and we will 
pick up there. And I am not asking you to speculate on where 
the rules would go of course, but rather about the rules in 
their proposed format.
    You know, we had the strongly bipartisan 1993 Religious 
Freedom Restoration Act, we have had a number of Supreme Court 
decisions.
    Mr. Leen, my assumption would be the proposed rules are in 
alignment with those decisions and those Congressional acts. 
Care to elaborate?
    Mr. LEEN. Yes. That is the intent of the proposed rule, to 
be consistent with applicable law and to clarify our 
regulations, OFCCP's regulations, to be consistent with 
applicable law.
    We are open-minded, we certainly want to get it right, so 
that is why we are going to take a look at the comments and 
then make a decision as to how to proceed. But that is the 
intent of the proposed rule.
    Mr. JOHNSON. Ms. Dhillon, I wanted to give you a bite at 
the apple.
    You know this is something that EEOC doesn't deal with 
maybe quite as much, the topics we have had, but I don't want 
to shut you out if you have got something to offer.
    Ms. DHILLON. Well, I am familiar with OFCCP's NPRM at a 
high level. Certainly interested in watching the process as it 
unfolds and as the comments come in, and I applaud them for 
going through the appropriate rule making process. I think it 
is the right way to handle an issue like this.
    Mr. JOHNSON. Well, thanks very much to all the panelists.
    And I yield back.
    Mrs. HAYES. Thank you.
    And now I will recognize myself for 5 minutes.
    Thank you all so much for being here.
    According to a 2016 report by the Economic Policy 
Institute, my home State of Connecticut is second only to New 
York in terms of statewide income inequality. In order to 
address pay discrimination and income inequality, we need the 
data.
    So, Chair Dhillon, in your responses to several of the 
Senate Help Committee Ranking Member Murray's questions during 
your September confirmation hearings, you stated, and I quote 
``Pay discrimination is a serious issue and an appropriate 
focus of the EEOC efforts. I believe that transparency of pay 
data is a useful tool.'' Do you still believe that transparency 
of pay data is a useful tool?
    Ms. DHILLON. Yes, I do.
    Mrs. HAYES. In that same confirmation hearing, in response 
to Ranking Member Murray's question, he asked, and I quote, 
``Will each of you commit to me that you will make finalizing a 
transparent pay data collection by the EEOC a priority and that 
it will be finished in a timely manner?'', to which you 
responded yes. Do you still hold that belief to be true?
    Ms. DHILLON. Yes, I do.
    Mrs. HAYES. So given that you have discontinued the 
component 2, will you be conducting a pilot program so that we 
can continue to collect pay data?
    Ms. DHILLON. Congresswoman, thank you for your question. We 
are continuing to collect component 2 pay data. To be clear, we 
are under court order to do so and the EEOC is complying with 
that court order and will do so, so long as the order is in 
effect.
    What the EEOC has done is, pursuant to the Paperwork 
Reduction Act, the PRA, we have indicated that we do not 
continue--we do not--we are not asking OMB to grant us the 
authority to continue to collect component 2 pay data in the 
future. Instead, as we indicated in the PRA, what we intend to 
do is go through a Title VII notice of rule making process so 
that we can solicit input and develop a type of data collection 
that meets our obligations under the PRA, which is to minimize 
the burden to the entities who are required to respond while 
matching that burden against the utility of the data to the 
EEOC.
    I do think that a pilot would be part of that. And, in 
fact, that was one of the recommendations made by the National 
Academy of Sciences in 2012. The EEOC did not adopt that 
recommendation and did not conduct a pilot study in connection 
with the 2016 PRA, but I believe that a pilot study would be 
appropriate.
    Mrs. HAYES. And you have also stated here today, and in the 
notice of information collection that was published, it says 
that there is an undue burden for collecting this type of 
information. Are you aware that the EEOC went through 6 years 
of analysis, significant interagency consultations, and 
multiple lengthy notice and comment periods during the issuing 
of component 2? I am sorry--yes, of component 2? Have you 
reached out and used any of that data or contacted the outside 
vendors or any people who collected this information 
previously?
    Ms. DHILLON. Congresswoman, I reviewed the comments that 
were submitted in 2016. It was not a notice and comment rule 
making process under the APA, as I believe it should have been. 
Instead, it was a 60-day PRA notice and in response to that 
groups submitted comments. And I have reviewed those comments. 
And the comments pointed out concerns that the respondent 
community had both with the utility and with the burden.
    In terms of the burden, in 2016, the EEOC calculated the 
burden at being approximately $53 million. But what they did 
was they calculated the burden at the employer level. So they 
treated every employer the same, regardless of size, regardless 
of the number of employees that they would have to report on, 
regardless of the configuration of their payroll systems, their 
HRIS systems, if they even have those kinds of systems in 
place. They assumed the burden to every employer was the same.
    Fast forward to the PRA notice that we submitted last week, 
at my direction our data scientists and our statisticians redid 
the burden calculation and they calculated the burden per 
report that an employer needed to complete because in some 
cases, if any employer has more than one establishment, they 
have to file multiple reports. And if an employer is going to 
submit additional reports, it stands to reason that the burden 
is higher. And, in fact, when that calculation was rerun, it 
was determined that the burden was 10 times higher than had 
originally been calculated.
    I would also note that the burden analysis that was 
conducted as part of the PRA notice that was submitted last 
week is consistent in methodology with what the EEOC previously 
did up until 2016. In 2016 the EEOC changed its approach. We 
went back to the prior approach in connection with the Federal 
Register notice.
    Mrs. HAYES. Thank you.
    I would like to ask unanimous consent that I submit a 
letter into the record from the Examining Policies and 
Priorities of Equal Opportunity Commission Office.
    Without objection, so ordered.
    I think that concludes all of our Member questions for 
today. I remind my colleagues that pursuant to Committee 
practice, materials for submission for the hearing record must 
be submitted to the Committee Clerk within 14 days following 
the last day of the hearing, preferably in Microsoft Word 
format. The materials submitted must address the subject matter 
of the hearing. Only a Member of the Committee or an invited 
witness may submit materials for inclusion in the hearing 
record. Documents are limited to 50 pages each. Documents 
longer than 50 pages will be incorporated into the record via 
an internet link that you must provide to the Committee Clerk 
within the required timeframe, but please recognize that years 
from now that link may no longer work.
    Again, I want to thank the witnesses for their 
participation today. What we have heard is very valuable.
    Members of the Committee may have some additional questions 
for you and we ask the witnesses to please respond to those 
questions in writing. The hearing record will be held open for 
14 days in order to receive those responses.
    I remind my colleagues that pursuant to Committee 
practices, witness questions for the hearing record must be 
submitted to the Majority Committee Staff or Committee Clerk 
within 7 days. The questions submitted must address the subject 
matter of the hearing.
    I now recognize the distinguished Ranking Member for his 
closing statement.
    Mr. COMER. Well, thank you. And I want to again thank the 
witnesses for coming to testify today. It is clear from the 
testimony heard here today that the Trump Administration, 
including the EEOC and OFCCP, continues to combat 
discrimination in the workplace. I am encouraged by the 
seriousness with which Chair Dhillon and Director Leen take 
their obligations to enforce nondiscrimination laws.
    I applaud the EEOC's recognition that the current employer 
pay data collection is a burdensome and costly mandate on job 
creators and a threat to the privacy of American workers.
    Furthermore, one of the things that makes America 
exceptional is the First Amendment, including its protection of 
the free exercise of religion.
    I am encouraged by OFCCP's proposed rule to protect the 
religious freedom of Federal contractors and I hope the final 
rule will be finalized swiftly.
    Thank you again for your testimony and I yield to the 
Chairwoman.
    Mrs. HAYES. Thank you.
    I now recognize myself for the purposes of making a closing 
statement.
    Thank you again to our witnesses for being here today. The 
EEOC and OFCCP's enforcement tools are critical to protecting 
American workers from discrimination. As our workplace becomes 
more diverse and as our society confronts pervasive issues like 
harassment and implicit biases, workers will increasingly rely 
on effective enforcement to defend their rights to be free from 
discrimination.
    Today's hearing highlighted recent policy shifts at the 
EEOC and OFCCP that raise serious questions about the agencies' 
commitments to fulfilling their responsibility to workers 
across America.
    Although this hearing is coming to a close, our oversight 
of these agencies will continue. Women, people of color, older 
Americans, workers with disabilities, and the LGBTQ community 
need our advocacy and oversight efforts to persist.
    I hope our witnesses will do everything they can to get 
these agencies back on track.
    If there is no further business, without objection, the 
Committee stands adjourned.
    [Additional submissions by Ms. Brown Barnes follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    [Questions submitted for the record and their responses 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    [Ms. Brown Barnes responses to questions submitted for the 
record follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    [Ms. Dhillion responses to questions submitted for the 
record follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Attachment 1A: https://www.govinfo.gov/content/pkg/CPRT-
116HPRT41267/pdf/CPRT-116HPRT41267.pdf
    Attachment 1B: https://www.govinfo.gov/content/pkg/CPRT-
116HPRT41268/pdf/CPRT-116HPRT41268.pdf
    Attachment 2A: https://www.govinfo.gov/content/pkg/CPRT-
116HPRT41280/pdf/CPRT-116HPRT41280.pdf
    Attachment 2B: https://www.govinfo.gov/content/pkg/CPRT-
116HPRT41281/pdf/CPRT-116HPRT41281.pdf
    [Mr. Leen responses to questions submitted for the record 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    [Whereupon, at 4:04 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
